 
                  u.s. GENERAL SERVICES ADMINISTRATION
                  Office of Inspector General



    Date:	        September 8, 2008

    Reply to:	    Gwendolyn A. McGowan
                  Deputy Assistant Inspector General for Information Technology Audits
                  (JA-T)

    To:	          Gail T. Lovelace
                  Chief Human Capital Officer (C)

    Subject:	     Improved Access Controls Could Help Protect Personnel Information within the
                  Comprehensive Human Resources Integrated System (CHRIS)
                  Report Number A060246/0/T/F080 13

    This report presents the results of our audit of specific access controls implemented with the
    Comprehensive Human Resources Integrated System (CHRIS) and highlights our audit findings
    and recommendations to Office of the Chief Human Capital Officer (OCHCO) management for
    improving system access controls for CHRIS. We have coordinated closely throughout the audit
    with system officials on specific Information Technology (IT) security issues we identified. We
    presented detailed information in a briefing to the OCHCO on June 11, 2008, and a copy of those
    siides are included as Appendix A. Due to the sensitive information contained in the Appendix
    related to the results of our technical security control scans, only reports provided to the OCHCO
    and the Office of the ChiefInformation Officer (OCIO) contain Appendix A.

    Background

    The OCHCO deployed CHRIS, a customized version of Oracle's Federal I-Iuman Resources
    Management System (OFHR), in August 2000 to provide on-line capabilities through a client
    server environment and improve Human Resources (HR) processing. CHRIS is used to initiate,
    generate, and store personnel actions and provide HR data used to produce reports for GSA and
    its Federal customers to meet internal and external reporting requirements. Over the past seven
    years, CHRIS has undergone significant changes, including transitioning to providing users web­
    based access over GSA's network in December 2001, providing GSA Associates with web-based
    access to their own personnel information within the system in September 2004, and
    implementing award functionality in March 2006.

    Objective, Scope, and Methodology

    The object of this review was to determine: (1) if management, operational, and technical
    controls have been implemented within CHRIS to appropriately limit access to sensitive
    personnel information; (2) if not, what vulnerabilities exist that may allow improper or
    fraudulent activity; and (3) what compensating controls should be implemented to ensure that
    CHRIS access controls support the mission and goals of Agency Services and Staff Offices
    (S/SO)? We gathered information related to the implementation of access controls and analyzed

                         241 18th Street S., CS4, Suite 607, Arlington, VA 22202-3402
                                                        ~
                               Federal Recycltng Program ~, Printed on Recycled Paper



I
key security documentation. We surveyed key Agency personnel and members of their staff,
including the Chief Human Capital Officer (CHCO); OCHCO, Director, Office of Information
Management; system security officials; and other OCHCO personnel responsible for developing,
maintaining, and operating the system. We also interviewed representatives from other GSA
S/SOs and Federal agencies that use the CHRIS system, including the National Archives and
Records Administration (NARA) in College Park, Maryland and the National Credit Union
Association (NCUA) in Alexandria, Virginia. Our review focused on users with Manager Self
Service access for CHRIS and the sensitive HR information that can be obtained through CHRIS
on-line. We used commercially available tools and agreed upon procedures to complete network
security scanning, examine database configuration, and review web application security for
CHRIS.

To assess managerial, operational, and technical controls for CHRIS, we relied on applicable
statutes, regulations, policies, and operating procedures regarding the development,
implementation, and testing of IT system access controls, such as: Office of Management and
Budget (OMB) A-130, Appendix III, Security of Federal Automated Information Resources,
November 28, 2000; the GSA IT Security Policy, CIO P 2100.1D, June 2007; the GSA Chief
Information Officer’s (CIO) IT procedural guides on certification and accreditation, security test
and evaluation, configuration management plans, security incident handling, and managing
enterprise risk; the Federal Information Security Management Act of 2002; OMB Memorandum
M-06-16, Protection of Sensitive Agency Information, June 2006; and National Institute of
Standards and Technology (NIST) special publications for securing Federal information systems.
We conducted this performance audit work in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. The scope of our audit did not
address overall functionality provided with CHRIS, training of users, or physical access controls.
The review also did not assess the accuracy and integrity of the data the system maintains.

Highlights of Audit Findings

CHRIS is GSA’s agency-wide automated HR management system. In implementing CHRIS, the
OCHCO provided important on-line capabilities and improved HR processes for GSA
Associates and employees of other Federal agencies that have contracted with GSA to use
CHRIS. Our review identified several areas where improved access controls for CHRIS could
help to better protect personnel information. We found that careful consideration of the system’s
functionality and controls is needed to better restrict access to certain personnel data. Overall,
improved access controls would help to enforce “Least Privilege” requirements for CHRIS.
Independent reviews of CHRIS audit logs could also help to address “Separation of Duties”
control risks, and careful consideration of controls for system reporting capabilities would
greatly assist in efforts to protect CHRIS data. Our review also found that prompt security
enhancements could improve CHRIS. The OCHCO should take steps to strengthen access
controls for CHRIS to (1) better ensure that personnel information is protected from
unauthorized disclosure, access, and modification and (2) preserve authorized access restrictions.




                                                2

Improved Access Controls Would Help to Enforce Least Privilege Requirements for CHRIS.
GSA’s CHRIS system has been designated as a moderate risk system that requires “Least
Privilege” access to data and processes. Specifically, Least Privilege is a policy that requires that
a system’s user be given no more access than necessary to perform his or her official duties.
Implementing Least Privilege effectively requires the (1) identification of specific tasks a user
needs to be able to perform, (2) determination of the minimum set of privileges required to
perform those tasks, and (3) restriction of the user to no more than those privileges needed to
perform those specified tasks. Procedures provided by the GSA-CIO for system access control
requires that Least Privilege be implemented for GSA’s moderate risk systems. As such, only
personnel with proper authorization and a “need-to-know” should be allowed access to data
processed, handled, or stored within the CHRIS system. Further, CHRIS security documentation
states that users are given the least amount of privileges or access needed to perform their duties.
The Privacy Impact Assessment (PIA) 1 developed for CHRIS also provides information on
access for the groups of users for the system and the amount of access each user group should
have. The users in the “managers and supervisors” group are described in the PIA as having
read-only access to their direct reports, with the ability to review limited personnel and benefit
information as well as assignment position, education, training, and performance appraisal
information for their employees. Our review found that managers and supervisors, through the
“Manager Self Service” menu, can create, view, modify, and approve performance plans,
appraisals, and awards for their direct employees. Managers and supervisors with “Manager Self
Service” access can also issue awards and view award amounts and justifications for GSA
employees from other S/SOs. Because the system does not restrict information that can be input
into the award justification data field, supervisors are free to include project-specific or other
information about individuals receiving awards. As such, award justifications within CHRIS can
contain sensitive information about other GSA divisions and personnel activities. 2 However,
award-related information could be used for unofficial purposes, and restricting access based on
a “need-to-know” could help to better manage risk associated with unauthorized access under the
Least Privilege policy.

CHRIS officials explained that the system was designed to delegate award authority and enable
managers to recognize staff who may not be assigned to their office. Through discussions with
seven managers from the Public Buildings Service (PBS), Federal Acquisition Service (FAS),
and Staff Offices at GSA’s Central Office, we found instances, however, where supervisors who
issue awards were unaware that managers from other S/SOs had access to award information.
Most managers we spoke with informed us that they would prefer that access to their employee
award information be restricted to only those within their own organizations who have a need to
access award information. We also found that Human Resources specialists from the National
Archives and Records Administration (NARA) currently use a customized version of the CHRIS
awards module to provide for restricted access to NARA award information. This capability
provides NARA managers the ability to issue an award to an employee from another office
without access to information on the award amounts and justifications input by another manager.



1
  A PIA addresses privacy issues associated with the collection and retention of sensitive information and examines 

the risks and effects of collecting, maintaining, and disseminating information in identifiable form.

2
  The two exceptions to this are Senior Executive Service employees and Office of Inspector General investigators.



                                                         3

In September 2005, 3 we recommended that the CHCO conduct a post-implementation review for
CHRIS: (1) validate estimated benefits and costs for CHRIS, (2) evaluate CHRIS to ensure
positive return on investment, and (3) ensure that the system meets organizational and user
needs. Subsequently, during this audit, we were informed that the OCHCO planned to do an
operational analysis in lieu of a post-implementation review. The OCHCO has since put
completion of the operational analysis on-hold until a decision is made at GSA as to how to
move forward, to either continue with CHRIS or move to a selected HR Shared Service Center
(SSC). Given the access control weaknesses we have identified, we re-affirm the importance of
completing a comprehensive assessment, including an evaluation of the controls implemented for
and functionality provided with the system, to determine how well the system is meeting all user
and management requirements and whether required controls, including provisions to enforce
Least Privilege, are in place and operating as intended.

Ensuring Independent Reviews of CHRIS Audit Logs Could Help to Address Separation of
Duties Control Risks. There is a potential conflict of interest when the same person who
administers access control functions also administers audit functions for any system. Effective
“Separation of Duties” is achieved by dividing responsibilities among two or more individuals or
organizational roles to diminish the likelihood that errors and wrongful acts will go undetected,
since the activities of one individual or group serve as a check on the activities of the other.
Audit trails can also be used in concert with access controls to identify and provide information
about users who are suspected of improper access to or modification of data (e.g., introducing
errors into a database). When audit trails are activated for a system, comparisons can then be
made between the actual changes made to records and what was expected. This practice can
help management determine if errors were made by the user, by the system or application
software, or by some other source. System resources should also be monitored to detect
unauthorized activity and deviations from the access control policy, and verify the effectiveness
of implemented security controls. NIST Special Publication 800-53 and the GSA IT Security
Policy 4 require that the Agency’s information systems enforce Separation of Duties
requirements, including those between access control functions and auditing procedures. Our
review found that, due to limited personnel resources for CHRIS, the OCHCO had not
implemented Separation of Duties for system auditing and monitoring. While we recognize the
challenges that limited resources place on organizations, we re-affirm the importance of
implementing key controls to ensure that personnel information is adequately protected and that
potential unauthorized activity within the CHRIS system is identified and investigated.

Careful Consideration of Controls for System Reporting Capabilities Is Needed to Protect
Personnel Information. CHRIS relies on the Commercial-off-the-Shelf (COTS) product
Business Objects, managed by PBS, for reporting. GSA, like other organizations, is becoming
increasingly reliant on information system services that are implemented outside of the system’s
accreditation boundary, which are used by, but not a part of, the organizational information
system. In general, the growing dependence on external service providers and new relationships
being forged with those providers can present new and difficult challenges, especially in the area
of information system security. However, the responsibility for adequately mitigating risk to

3
  Strategic Challenges for GSA’s Comprehensive Human Resources Integrated System (CHRIS), Report Number 

A040142/O/T/F05025, September 30, 2005. 

4
  GSA Order, CIO P 2100.1D, GSA Information Technology (IT) Security Policy, July 21, 2007. 



                                                    4

agency-wide and customer HR operations and assets arising from the use of external information
system services remains with the authorizing official for the system. Our review found that the
OCHCO had not yet assessed controls for or risks associated with accessing CHRIS personnel
information through the Business Objects reporting utility. NIST recommends that organizations
that own and operate interconnected systems should establish a Memorandum of Understanding
(MOU) that defines the responsibilities of both parties in establishing, operating, and securing an
interconnection. An MOU between the OCHCO and the PBS OCIO for services supporting
CHRIS access to the PBS Business Objects enterprise server software license and associated
tools was established in March 2001. The MOU documents the number of users that will access
the Business Objects software and that need computer-based training, as well as the cost to the
OCHCO for those services for a two-year period. The details of the interconnection and the
controls required for the protection of personnel information accessed through the Business
Objects reporting utility, however, have not yet been established. For instance, key roles and
responsibilities for securing the interconnection and CHRIS data for PBS and the OCHCO are
not yet clear. The potential impact of this type of operating environment was highlighted on
June 4, 2007 when an authorized CHRIS user from NARA inadvertently accessed and displayed
employee records from all Agencies with information stored in the CHRIS database using the
PBS Business Objects utility. Prompt action was taken by the OCHCO to identify the
vulnerability and to make every attempt to avoid a reoccurrence. However, this security incident
highlighted the need to have a complete MOU in place to adequately define roles and
responsibilities for securing CHRIS data accessed through Business Objects and identify
required controls to manage risks, including unauthorized or unintentional access to or disclosure
of personnel information. To address this need, we believe it is important for the OCHCO to
closely coordinate with PBS and establish a MOU that defines roles and responsibilities for
securing CHRIS data for PBS and the OCHCO and that identifies security controls required to
appropriately restrict personnel data provided with the Business Objects reporting utility.

Prompt Security Enhancements Could Improve CHRIS. We applied commercially available
vulnerability assessment tools, manual techniques, and agreed upon procedures to test technical
controls for CHRIS. Testing included reviewing web application security and examining
database configuration. The tests identified opportunities to reduce risk to the CHRIS web
application and database. We met with system security officials the end of May 2007 and
conveyed the detailed results of our system security scanning. We also re-scanned the database
in July 2007 after a system upgrade and discussed updated results with system security officials.
Vulnerabilities identified with our scanning of the CHRIS Oracle database involve recording the
actions taken by users in the database, including the activity of privileged users. These
vulnerabilities could make it more difficult to detect when an attack occurs and to be able to
analyze the attack after the fact. Automated scanning of the CHRIS web application identified
possible SQL injections and instances where exceptions were not being appropriately handled,
both of which could enable an attacker to exploit the vulnerability and gain unauthorized access
to the database and its contents. Manual web application testing identified additional
opportunities to harden the system, such as eliminating cross site scripting and delaying logins,
to reduce risk. Specific vulnerabilities identified during our review are included in the briefing
slides provided as Appendix A. Due to the sensitive nature of the information, only reports
given to the OCHCO and OCIO contain this appendix. Taking specific steps to secure the
CHRIS database and web application would reduce the likelihood that the system could be



                                                5

compromised due to known vulnerabilities, which could put personnel information and the
CHRIS system at undue risk.

Recommendations

To better restrict access to personnel information, we recommend that the Chief Human Capital
Officer:
1.	 Complete a comprehensive assessment, including an evaluation of access controls
    implemented for and functionality provided with the system, to determine if CHRIS has been
    implemented in accordance with user and management requirements and whether Least
    Privilege controls are in place and operating as intended.
2.	 Ensure independent reviews of CHRIS auditing and monitoring logs are completed.
3.	 Coordinate with PBS to establish a MOD that defines roles and responsibilities for securing
    CHRIS data for PBS and the OCHCO and identifies security controls required to protect
    personnel data viewed with the Business Objects reporting utility.
4.	 Address CHRIS technical vulnerabilities and ensure all known vulnerabilities are promptly
    recorded and mitigated.

Management Comments

The CHCO concurred with all audit findings and recommendations. A copy of the CHCO's
comments is provided in its entirety as Appendix B.

Internal Controls

The objective of this review was to determine: (1) if management, operational, and technical
controls have been implemented within CHRIS to appropriately limit access to sensitive
personnel information; (2) if not, what vulnerabilities exist that may allow improper or
fraudulent activity; and (3) what compensating controls should be implemented to ensure that the
CHRIS access controls support the mission and goals of Agency Services and Staff Offices
(S/SO)? This report states the need to strengthen specific access controls for CHRIS in order to
better protect personnel information. This review did not address overall system functionality or
physical access controls. We also did not assess the integrity or accuracy of the information
maintained in the system.

I wish to express my appreciation to you and your staffs for your cooperation during the audit. If
you have any questions, please contact me or Gwen McGowan, Deputy Assistant Inspector
General for IT Audits, on 703-308-1223.




 ~~m~
Jennifer :rvr. Klimes
Audit Manager, Information Technology Audit Office (JA-T)




                                                6
                           IMPROVED ACCESS CONTROLS 

                         COULD HELP PROTECT PERSONNEL

                     INFORMATION WITHIN THE COMPREHENSIVE 

                          HUMAN RESOURCES INTEGRATED 

                                 SYSTEM (CHRIS) 

                         REPORT NUMBER A060246/O/T/F08013


                   APPENDIX A –BRIEFING SLIDES TO THE CHCO

Due to the sensitive nature of the information contained in this appendix, only reports provided
to the Office of the Chief Human Capital Officer (OCHCO) and the Office of the Chief
Information Officer contain a copy of the briefing slides used to present detailed information to
the OCHCO on June 11, 2008. Requests for copies of these slides should be referred to
Gwendolyn McGowan, Deputy Assistant Inspector General for Information Technology Audits,
or Jennifer Klimes, Audit Manager, on 703-308-1223.




                                              A-1                                               

             IMPROVED ACCESS CONTROLS
           COULD HELP PROTECT PERSONNEL
       INFORMATION WITHIN THE COMPREHENSIVE
            HUMAN RESOURCES INTEGRATED
                   SYSTEM (CHRIS)
           REPORT NUMBER A060246/O/T/F08013

APPENDIX B – GSA CHCO’S RESPONSE TO THE DRAFT REPORT




                        B-1
                         IMPROVED ACCESS CONTROLS 

                       COULD HELP PROTECT PERSONNEL

                   INFORMATION WITHIN THE COMPREHENSIVE 

                        HUMAN RESOURCES INTEGRATED 

                               SYSTEM (CHRIS) 

                       REPORT NUMBER A060246/O/T/F08013


                      APPENDIX C – REPORT DISTRIBUTION

                                                                                 Copies
With Appendix A

Chief Human Capital Officer, Office of the Chief Human Capital Officer (C)…………………..3

Chief Information Officer, Office of the Chief Information Officer (I).………………………….2

Without Appendix A

Chief Information Officer, Public Buildings Service (PG)…..…………………………………...1

Assistant Inspector General for Auditing (JA and JAO)………………………………………….2

Administration and Data System Staff (JAS)……………………………………………………..1

Deputy Assistant Inspector General for Finance and Administrative Audits (JA-F)……………..1

Assistant Inspector General for Investigations (JI)…………………………………………….....1

Internal Control and Audit Division (BEI)………………………………………………………..1

Audit Liaison, Office of the Chief Human Capital Officer (C)…………………………………...1




                                         C-1 

